Audit of USAID’s Small and Disadvantaged
Business Utilization Practices

Audit Report Number 9-000-04-004-P
September 3, 2004




                    Washington, D.C.
(This page intentionally left blank.)
September 3, 2004


MEMORANDUM
FOR:           M/OAA, Timothy T. Beans
               OSDBU, Marilyn S. Marton

FROM:          IG/A/PA Acting Director, Roosevelt Holt /s/

SUBJECT:       Audit of USAID’s Small and Disadvantaged Business Utilization
               Practices (Report No. 9-000-04-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on our draft report and have included your responses as
Appendix II.

This report includes four recommendations to 1) update USAID’s Small Business
Administration-related guidance, 2) coordinate reporting with the Federal Procurement
Data Center, 3) improve data verification procedures, and 4) reconstruct missing contract
files. In your written comments, you concurred with Recommendations No. 2 and 4 and
identified planned actions to address our concerns. Consequently, we consider that
management decisions have been reached and that final action is pending on those
recommendations. Information related to your final action on these recommendations
should be provided to USAID’s Office of Management Planning and Innovation.

Concerning Recommendation No. 1, you indicated the need to seek additional input from
USAID’s General Counsel, the Small Business Administration and the Office of Federal
Procurement Policy. Accordingly, a management decision has not been reached for
Recommendation No. 1. Moreover, while you indicated your agreement with the goal of
Recommendation No. 3, you do not believe that OAA’s current requirements for data
verification should be revised. Consequently, a management decision has not been
reached for Recommendation No. 3.

Please provide written notice within 30 days of any additional information related to the
actions planned or taken to implement any recommendations without a management
decision.

I appreciate the cooperation and courtesy extended to the audit staff during the audit.
(This page intentionally left blank.)
Table of   Summary of Results............................................................................................. 5
Contents
           Background .......................................................................................................... 5

           Audit Objective.................................................................................................... 6

           Audit Findings ..................................................................................................... 6

                      Has the task ordering process carried out by mission directors
                      affected USAID's ability to meet the goals established by the
                      Small Business Administration? .............................................................. 6

                                 Mission Task Orders Were
                                 Not Included in SBA Program .................................................... 7

                                 The Reporting of Mission
                                 Task Orders Was Understated ................................................... 10

                                 Some Original Contract
                                 Documents Were Missing.......................................................... 13

           Evaluation of Management Comments ............................................................. 13

           Appendix I-Scope and Methodology ................................................................. 15

           Appendix II-Management Comments................................................................ 17




                                                                                                                                     3
(This page intentionally left blank.)




                                        4
Summary of   An Office of Small and Disadvantaged Business Utilization (OSDBU) exists in all
Results      U.S. Federal agencies in accordance with The Small Business Act to ensure both
             the participation of U.S. small and disadvantaged businesses in Federal
             procurement opportunities and that the goals established by the Small Business
             Administration are met. The procurement goals are stated as a percentage of total
             contracting that is subject to the Act. (See “Background” section below.)

             As part of the multi-year plan for auditing procurement activities, the Performance
             Audits Division of the Office of Inspector General conducted this audit to
             determine whether the task ordering process carried out by overseas missions
             affected USAID’s ability to meet the goals established by the Small Business
             Administration. (See page 6.)

             The audit concluded that the task ordering process1 carried out by mission
             directors materially affected USAID’s ability to meet the goals established by the
             Small Business Administration. Due to the fact that USAID mistakenly had not
             included mission task orders in its small and disadvantaged business program, it
             did not report these task orders in the program. Had they been included in the
             program, they would have materially lowered the percentage of awards to small
             and disadvantaged business, thus affecting USAID’s ability to achieve the goals
             established by the Small Business Administration. (See pages 6 and 7.)

             Additionally, USAID’s Office of Acquisition and Assistance’s contract data base,
             as well as the Federal Procurement Data Center’s data base, were not accurate and
             complete, which materially understated the amount of task orders awarded by
             missions. Had all of the mission task orders been accurately recorded in the
             contract data base and reported in the program results, they would have further
             lowered USAID’s achievements and impacted USAID’s ability to achieve its
             Small Business Administration goals. An additional problem concerned original
             contract files that were missing. (See pages 10 and 13.)

             This report includes four recommendations to assist the Office of Acquisition and
             Assistance and the Office of Small and Disadvantaged Business Utilization in
             expanding the small and disadvantaged business program to include mission task
             orders, reporting program results completely and accurately, as well as
             maintaining contract documentation. (See pages 9, 10, 12 and 13.) Management
             concurred with two of the recommendations, generally concurred with the goal of
             one other recommendation and is awaiting additional information before deciding
             on the final recommendation. (See pages 13 and 14.)


Background   In the Small Business Act of 1953 (Public Law 85-536), Congress created the
             Small Business Administration (SBA) whose function was to aid, counsel, assist
             and protect, insofar as is possible, the interests of small business concerns. The

             1
                 Task orders are individual orders awarded under an indefinite quantity contract.


                                                                                                    5
                 charter also stipulated that the SBA would ensure small businesses a fair
                 proportion of government contracts. In summary, the law requires that:

                 •   Federal agencies establish an Office of Small and Disadvantaged Business
                     Utilization (OSDBU) to assist small businesses by expanding their contracting
                     opportunities and by helping solve problems.
                 •   Federal agencies provide maximum practicable opportunity to small
                     businesses to win awards and work to improve procurement processes to meet
                     the goals.
                 •   Annual goals for prime contracting and subcontracting with small and
                     disadvantaged businesses be set by Federal agencies.
                 •   The head of each agency report on the extent of participation of these entities
                     to the SBA on an annual basis.
                 •   Monitoring be conducted of performance against contracting plans by the
                     SBA.
                 •   Subcontracting plans for small business be completed for larger prime
                     contractors.

                 The SBA has established the Federal small business goals for fiscal year 2002 and
                 later years by requesting that all Federal agencies establish goals that will provide
                 a total of 23 percent of all Federal procurement awards to small businesses, as
                 well as goals for small and disadvantaged business and other categories. A memo
                 dated February 4, 2002, from the Administrator, acknowledges the SBA goals and
                 sets forth the Small Business Procurement Preference Goals for USAID in order
                 to meet the Federal goals.

                 In addition to the Small Business Act, as amended, Section 602 of the Foreign
                 Assistance Act of 1961 (P.L. 87-195) calls for assisting American small business
                 to participate equitably in the furnishing of commodities, articles, and services
                 financed with funds made available under the Foreign Assistance Act.


Audit            This audit was conducted as part of the Office of Inspector General’s fiscal year
Objective        2004 audit plan, and was conducted to answer the following question:

                 Has the task ordering process carried out by mission directors affected USAID’s
                 ability to meet the goals established by the Small Business Administration?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings    The task ordering process carried out by mission directors has affected USAID’s
                  ability to meet the goals established by the Small Business Administration. Due
                 to the fact that USAID had mistakenly considered all mission contracting exempt
                 from SBA program requirements, it did not include mission task orders in its
                 small and disadvantaged business program, nor did it include them in its reported


                                                                                                    6
SBA achievements in fiscal year 2002, the year we tested. Had USAID reported
these task orders in its program results, they would have materially lowered the
percentage of awards to small and disadvantaged business, thus affecting
USAID’s ability to achieve its SBA goals.

Those percentages would have been furthered lowered had USAID been
accumulating and reporting complete data on task order awards. Our tests
determined that task orders at two missions were materially understated in
USAID’s contract data base. The fact that USAID’s controls for recording
mission task orders in the contract data base need to be strengthened suggests that
understatements probably existed at other missions as well. This problem
suggests that USAID’s SBA achievements would have been lowered further had
mission task orders been accurately reported in the SBA program results. These
issues are discussed below.

Mission Task Orders Were
Not Included in SBA Program
    Summary:       USAID did not include mission task orders under
    USAID/Washington indefinite quantity contracts (IQCs) in its small and
    disadvantaged business program in fiscal year 2002, contrary to a recent USAID
    General Counsel opinion that was issued during the course of this audit. This
    occurred because management had mistakenly believed that an exemption in the
    Federal Acquisition Regulation (FAR) excluded all mission contracting from the
    program. The resulting exclusion overstated USAID’s officially reported SBA
    accomplishments and would have materially affected USAID’s ability to achieve
    its SBA goals had they been included in the program.

For fiscal year 2002, the Federal Procurement Data Center (FPDC) reported the
following achievements for USAID’s small and disadvantaged business program.2

                                            Table 1
                               FPDC Reported Fiscal Year 2002
                          Small Business Administration Achievements
                            (Percentage of Applicable Procurement)
                              Small Dis-    Section      Non-     Women       HUB         Veteran’s
                   Small      advantaged     8(a)       Section    Owned      Zone         Owned
                  Business     Business    Business3     8(a)     Business   Business4    Business
    SBA
    Minimum         23           5             *           *         5           3            3
    Goal
    Reported
    USAID           45          33             2          31         3           0            0
    Achievement
     *No minimum goals set by SBA

2
  These results were reported in May 2003.
3
  Section 8(a) pertains to small disadvantaged businesses that contract indirectly through the SBA.
4
  Historically Underutilized Businesses are located in high unemployment or low income areas.


                                                                                                  7
As indicated above, USAID was reported as having exceeded SBA goals for
small and small disadvantaged businesses by significant margins. However, the
goals for women-owned, HUB zone and veteran’s-owned businesses were not
entirely met. USAID officials stated that the reason the goals were not met for
women-owned, HUB zone, and veteran’s-owned business was that there was not
a sufficient number of firms in these categories that were able to supply the goods
and services required by USAID.

To compute the above percentages, the FPDC reported that in fiscal year 2002,
USAID had awarded a total of $344.8 million of contracts subject to SBA goals
(also referred to as the contract baseline). However, per USAID guidance,
mission task orders under USAID/Washington indefinite quantity contracts were
not included in the program, nor were they reported in the contract baseline. The
Office of Acquisition and Assistance (OAA) calculated that these mission task
orders totaled $238.1 million in fiscal year 2002, which would have increased the
contract baseline from $344.8 million to $582.9 million—or by 69 percent—had
they been included. OAA officials stated that the reason for excluding missions
from the program was based on an exemption in Section 19.000(b) of the Federal
Acquisition Regulation.

FAR Part 19 implements the acquisition-related sections of the Small Business
Act. FAR Section 19.000(b) contains an exemption which states that Part 19 only
applies in the United States or its outlying areas. USAID management interpreted
this to mean that contracting at overseas missions was exempt from the program,
since missions were not located in the United States.

USAID’s SBA guidance, implementing the program internally, is contained in the
Automated Directives System Chapter 321 and is codified in the AID Acquisition
Regulation (AIDAR) Part 719. Although it provides explicit contracting
procedures for awarding contracts to small and disadvantaged business, AIDAR
719 specifically applies only to USAID/Washington contracting activities.

Since mission task orders under USAID/Washington-based indefinite quantity
contracts were not specifically discussed in the FAR 19 exemption, we asked
USAID’s General Counsel’s Office (GC) for an opinion regarding the application
of the FAR 19 exemption to these task orders. The GC responded in a memo
dated January 29, 2004 with an opinion which stated that a task order did not
constitute a contract and therefore was not by itself subject to the FAR. The
actual contract in this case, however, would be the overlying indefinite quantity
contract. Since this overlying instrument was awarded in the United States, the
contract would be subject to the FAR 19 and subsequently the SBA program. By
extension, all of the task orders under that indefinite quantity contract would
therefore be subject to FAR 19 and the SBA program regardless of whether the
work would be performed in the United States or overseas. Consequently, the
General Counsel’s Office concluded that mission task orders under



                                                                                 8
USAID/Washington-based IQCs would be subject to FAR 19, and subsequently,
to the SBA program, which is contrary to current USAID policy.

Based on current USAID guidance found in AIDAR 719, missions were not
required to follow the provisions of the small and disadvantaged business
program when awarding task orders under USAID/Washington-based IQCs. The
result of this policy was that a material amount of USAID procurement was not
included in the small and disadvantaged business program as required by the
FAR. By excluding mission task orders from the program, USAID overstated its
SBA achievements for fiscal year 2002. Adding the $238.1 million5 of mission
task orders calculated by OAA into the reported contract baseline of $344.8
million would have materially lowered the reported achievements, and would
have had a significant effect on USAID’s ability to meet the SBA goals.
Although USAID may still have met the small business and the small
disadvantaged business goals based on reported results, the margin would have
been significantly less. Additionally, the achievement for the women-owned
business goal would have been substantially lower. HUB zone and veteran’s-
owned businesses would have remained at zero.

Furthermore, as detailed in the following section, OAA’s reported amount of
$238.1 million for task orders for two missions was understated by at least $22.3
million—or about 9 percent. Although this understatement cannot be projected to
the entire universe, the control weaknesses that caused the understatement
indicate that the amount of task orders reported for other missions may also be
understated. If these and additional amounts from other missions had been added
to the $238 million baseline, it would further have affected USAID’s ability to
achieve its goals under the small and disadvantaged business program. This
situation, along with the omission of mission task orders from the SBA program,
continued in fiscal years 2003 and 2004, thereby overstating achievements in
these years as well. Because we were unable to project our sample results to the
entire mission task order population, we did not compute USAID’s SBA
achievements with mission task orders included in the contract baseline.

To ensure that 1) USAID’s overseas contracting officers have proper guidance on
applying the SBA program to task orders, 2) small and disadvantaged firms are
afforded the protections provided by the small and disadvantaged business
program and 3) small and disadvantaged business program results are accurately
reported, we are making the following recommendations.

        Recommendation No. 1: We recommend that USAID’s Office
        of Acquisition and Assistance, in conjunction with USAID’s
        Office of Small and Disadvantaged Business Utilization, revise
        its guidance and internal control procedures for its small and
        disadvantaged business program to include mission task orders

5
 Of the $238.1 million, OAA reported that $26.4 million (11.1%) was small business and $6.7
million (2.8%) was small disadvantaged business.


                                                                                         9
           awarded under             USAID/Washington             indefinite   quantity
           contracts.

           Recommendation No. 2: We recommend that USAID’s Office
           of Acquisition and Assistance revise its reporting procedures
           and coordinate with the Federal Procurement Data Center to
           ensure that mission task orders under indefinite quantity
           contracts are reported by the Federal Procurement Data
           Center as part of the contract baseline subject to the small and
           disadvantaged business program.


The Reporting of Mission
Task Orders Was Understated
    Summary: While we did not identify any discrepancies in the reporting of
    USAID/Washington contract actions, our audit tests revealed that both the
    OAA and the FPDC underreported USAID mission contract actions. Like
    other Executive departments and agencies, USAID is responsible for collecting
    and reporting procurement data to the computer-based Federal Procurement
    Data System (FPDS). Furthermore, the “FPDS Reporting Manual” states that
    such agencies shall 1) establish a central data collection point to collect and 2)
    verify the accuracy of reports submitted by their contracting offices. The data
    reported by the FPDS is important because it is used to measure and assess the
    impact of Federal procurement on the nation’s economy, the extent to which
    small business firms and small disadvantaged business firms are sharing in
    Federal procurement and for other procurement policy purposes. Accurate
    input from USAID is essential if U.S. Government officials and others are to
    accurately assess USAID’s contributions to the above areas.                   This
    underreporting was the result of weak system application controls as discussed
    below.


Testing at Missions—For the two missions tested,6 task orders under indefinite
quantity contracts (IQC), as reported by the OAA and FPDC, were understated.
For fiscal year 2002, the Ukraine and West Bank Gaza missions reported $43.2
million of task orders in their Mission Accounting and Control System (MACS).
We traced this total to supporting mission contracting documents without
exception. However, as presented in Table 2, OAA’s contract data base reported
only $20.9 million, for an understatement of $22.3 million, or 52 percent of the
total for the two missions. This understatement represents approximately nine
percent of the $238.1 million that OAA’s contract data base reported for all
mission task orders under USAID/Washington IQCs.



6
    We performed audit tests at two out of 44 reporting overseas locations.


                                                                                          10
                                               Table 2
                   Fiscal Year 2002 OAA’s Data Base vs. MACS Reported Task Orders
                                                                  Variance     Understatement of
         Mission             OAA Data Base        MACS           OAA/MACS       OAA Data Base

 Ukraine                       $11,500,000       $26,500,000     $15,000,000        57%

 West Bank Gaza                   9,400,000       16,700,000      $7,300,000        44%

 Total                         $20,900,000       $43,200,000     $22,300,000        52%

As set forth in Table 3, task orders under IQCs reported by FPDC totaled $11.5
million, for an understatement of $31.7 million, or 73 percent of the audited total
for the two missions tested. This understatement represents approximately 13
percent of the $238 million that OAA’s contract data base reported for all mission
task orders under USAID/Washington IQCs.
                                              Table 3
                        Fiscal Year 2002 FPDC vs. MACS Reported Task Orders
                                                                   Variance    Understatement of
         Mission            FPDC Data Base        MACS           FPDC/MACS     FPDC Data Base

 Ukraine                       $10,500,000       $26,500,000     $16,000,000        60%

 West Bank Gaza                   1,000,000       16,700,000      15,700,000        94%

 Total                         $11,500,000       $43,200,000     $31,700,000        73%



There were several causes for the understatements in OAA’s contract data base.
For example, OAA relied on contract document preparation software called
Prodoc as its source for mission contract data. Mission contracting officers used
Prodoc to prepare actual contract documents. The data was then transmitted
quarterly to USAID/Washington, after which OAA loaded the data from Prodoc
into its contract data base. Once the data was in OAA’s data base, OAA prepared
transmittal forms that were sent to FPDC for recording in the FPDS, and
ultimately for reporting USAID’s SBA achievements.

However, during fiscal 2002, one of the missions tested did not use Prodoc for the
entire year because the system was newly implemented at the mission and
contract personnel were still training on the system. Consequently, contract data
did not reach the final edit stage and, therefore, was not transmitted to OAA in
Washington.

According to OAA officials, another reason that task orders may not have been
recorded in OAA’s data base was due to fact that missions, in general, may not
have been installing Prodoc upgrades in a timely manner. Since Prodoc can
experience several upgrades over the course of a year, missions must upgrade
their systems in a timely manner, otherwise their data transmissions may not be



                                                                                              11
properly received by OAA due to differences between OAA’s production version
and an outdated mission version of the system.

Finally, although it did not impact fiscal year 2002 data, we determined that
OAA’s data verification program, which started in fiscal year 2003, needed to be
strengthened. This program began in fiscal year 2003 with a request that
contracting officers verify key fields on a schedule of contracts recorded in
OAA’s data base. However, the program did not specifically request missions to
search for contracts that may have been missing from OAA’s data base, nor did
the program require that contracting officers respond. One mission that we
examined did not respond to the verification request citing work load problems.
The other mission we tested did verify the data fields, however, it did not look for
contracts that may have been missing from OAA’s schedule. Since OAA is
planning on installing a new contract data base system in fiscal year 2005, we are
not making any recommendations concerning the controls for Prodoc. However,
if data in USAID’s current system is going to be migrated into the new system,
complete and accurate current and historical data will be needed. Therefore,
OAA’s data verification program will remain an important element of OAA’s
control procedures.

Regarding the FPDC understatements, OAA officials stated that, in addition to the
above causes, one additional cause for the understatement was due to the slow
receipt of contract data from missions. Although FPDC has a strict cutoff date for
fiscal year data, frequently missions transmit contract data for a particular year
after FPDC’s cutoff date. Therefore, while OAA’s data base may reflect a late-
reported contract action, FPDC’s system would not.

By understating the number of mission contracts, USAID’s procurement data
reported by the Federal Procurement Data Center was not accurate and reliable.
In general, data that is not accurate will not adequately contribute to the effective
measurement and assessment of the impact of Federal procurement on the
nation’s economy, as well as measuring the extent to which small business firms
and small disadvantaged business firms are sharing in USAID procurement.
Specifically, since mission data was understated, these unrecorded contracts
artificially inflated USAID’s SBA achievements by understating the contract
baseline against which achievements were measured. To address these issues, we
have the following recommendation.

       Recommendation No 3: We recommend that USAID’s Office
       of Acquisition and Assistance revise its contract data
       verification procedures to: 1) require mission contracting
       officers to verify the completeness of mission-reported
       contracts that are reported to the Federal Procurement Data
       Center, and 2) require that all mission contracting officers
       respond to the data verification requests.



                                                                                  12
                Some Original Contract
                Documents Were Missing

                GAO’s “Standards for Internal Control in the Federal Government” states that all
                transactions and other significant events should be clearly documented, and that
                the documentation should be readily available for examination. Accordingly, all
                documentation and records should be properly managed and maintained. This is
                especially important in the case of contracts, where the original documents may
                serve as the legal basis for obligating the U.S. Government and where the files
                comprise the historical record of a contract.

                Despite the importance of maintaining contract files, OAA was unable to locate
                the original files for four USAID/Washington contracts totaling $23.1 million out
                of a sample of 22 contracts. As a result, USAID may not have the documents
                supporting the validity of those contracts and the related obligations. Moreover,
                in addition to providing legal documents in support of official accounting
                transactions, contract files provide contracting officers with a comprehensive
                record for managing the respective contracts, which can be subject to numerous
                amendments.        This historical knowledge may have been lost with the
                disappearance of those files.

                When asked, OAA officials were unable to provide an explanation for the absence
                of the requested contract files. Moreover, the person in charge of OAA’s file
                room indicated that the files in question had never been logged into the file room.

                In order to guard against future losses of contract files and to address the four
                missing files, we are making the following recommendation.

                       Recommendation No. 4: We recommend that USAID’s Office
                       of Acquisition and Assistance: 1) determine the cause for the
                       four missing contract files, 2) revise related control procedures
                       to improve assurance that contract files are safeguarded and
                       adequately maintained, and 3) reconstruct the missing contract
                       files.




Evaluation of   USAID’s Office of Acquisition and Assistance (OAA) and the Office of Small
Management      and Disadvantaged Business Utilization (SDBU) provided the following response
                to our recommendations.
Comments
                Recommendation No. 1 recommended that OAA—in conjunction with SDBU—
                revise USAID’s guidance and procedures for its small and disadvantaged business
                program to include mission task orders. Management responded that it needed to
                seek further clarification from USAID’s General Counsel, the Small Business


                                                                                                13
Administration and the Office of Federal Procurement Policy before issuing
guidance. Accordingly, a management decision has not been made on this
recommendation.

Recommendation No. 2 recommended that OAA revised its reporting procedures
and coordinate with the Federal Procurement Data Center to ensure that mission
task orders are appropriately included in the data reported for USAID.
Management concurred with this recommendation and, consequently, a
management decision has been reached.

Recommendation No. 3 recommended that OAA revise its contract data
verification procedures to require that contracting officers verify the completeness
of mission-reported data and that all mission contracting officers respond to data
verification requests.     While Management agreed with the goal of this
recommendation, it stated that these requirements already exist and that the key
issue is compliance with existing guidance. Management does not agree with the
need to revise its verification procedures. Therefore, a management decision has
not been reached.

Recommendation No. 4 recommended that OAA determine the cause of the
missing contract files, revise the related control procedures to improve the
safeguarding and maintenance of files and reconstruct the missing files.
Management concurred with this recommendation and noted that its plans to
reconstruct the missing files within 90 days. Moreover, Management committed
to ensuring that the files are maintained in accordance with office file room
procedures. Accordingly, OAA has reached a management decision. However,
Management did suggest that putting in place curative procedures would be more
productive than seeking the cause of the lost files. While we laud OAA’s interest
in strengthening its file keeping practices, we suggest that identifying the cause of
the lost files is a key element in strengthening those practices. Unless this cause
is identified and addressed, changes to file keeping procedures may or may not
adequately address that cause and may or may not prevent the loss of future files.




                                                                                  14
                                                                                         Appendix I

Scope and     Scope
Methodology
              The Performance Audit Division conducted this audit in accordance with
              generally accepted government auditing standards. We conducted the audit field
              work at USAID/Washington, as well as overseas at USAID/Kiev and
              USAID/West Bank Gaza, from February 5, 2004 to July 23, 2004. For contract
              data, we used the data base maintained by the Office of Acquisition and Assistance
              (OAA), the data base at the Federal Procurement Data Center, and Mission
              Accounting and Control Systems at the two missions visited, assessing the reliability
              of the data in these systems against the original contract files. The sample for
              USAID/W contracts in the Office of Acquisition and Assistance’s data base totaled
              $104.0 million out of a reported population of $469.8 million. The sample for
              mission task orders in the Office of Acquisition and Assistance’s data base totaled
              $20.9 million out of a reported population of $238.1 million. The scope was limited
              to fiscal year 2002 contracts.

              The scope of the audit included an examination of the management and internal
              controls associated with the implementation of the small and disadvantaged business
              program and related reporting requirements. These controls consisted of recording
              and transmitting original contract data at both the mission and USAID/Washington
              levels, maintaining OAA’s contract data base, verifying contract data accuracy and
              completeness, and transmitting contract data to the Federal Procurement Data
              Center.

              Regarding the causes for the understatement of mission task orders, we did not
              confirm all of the weaknesses in the Prodoc system due to the fact that the system is
              currently scheduled for replacement in the next fiscal year. Concerning the causes
              for the missing contract files, we did not confirm what the actual causes were for the
              file disappearances due to the fact that this area was outside the scope of the original
              audit objective.

              We found no prior audit findings related to the areas reviewed.


              Methodology

              In order to gain an understanding of USAID’s reporting of contracts and
              implementation of the small and disadvantaged business program, we held
              discussions with USAID officials in the Office of Acquisition and Assistance, the
              Office of Small and Disadvantaged Business Utilization, Office of General Counsel,
              USAID/Kiev, and USAID/West Bank Gaza, the Small Business Administration, as
              well as officials from the Federal Procurement Data Center.




                                                                                                   15
We performed the following:

•   Reviewed relevant laws, regulations, guidance, and procedures to gain an
    understanding of the compliance issues relating to the small and
    disadvantaged business program.
•   Obtained an opinion from the General Counsel, which stated that mission task
    orders under USAID/Washington indefinite quantity contracts should be
    included in the small and disadvantaged business program.
•   Interviewed cognizant officials and evaluated the management and internal
    control systems for ensuring compliance with the small and disadvantaged
    business program and related reporting requirements.
•   Evaluated the management and internal controls for recording contract data at
    both the mission and USAID/Washington levels, maintaining the OAA
    contract data base, and reporting contract data to the Federal Procurement
    Data Center.
•   Traced a judgmental sample of contracts from OAA’s data base to the source
    documents at two missions and at USAID/Washington, as well as to the data
    base at the Federal Procurement Data Center, assessing the reliability of the
    data. The sample selection criteria consisted of missions with both a large
    number of task orders and a large dollar value of task orders.
•   Compared the amount of actual mission task orders to the total reported amount
    of contracts subject to the small and disadvantaged business program.

To answer the audit objective, we set the materiality threshold for the total reported
mission task orders at five percent of the total reported contract amount subject to
the small and disadvantaged business program.




                                                                                   16
                                                                                     Appendix II


Management
Comments

                                                                    Aug 25, 2004


         MEMORANDUM

         To:           IG/A/PA Acting Director, Michael W. Clinebell

         From:         M/OAA, Timothy T. Beans /s/
                       OSDBU, Marilyn S. Marton /s/

         Subject:      Draft Report on Audit of USAID’s Small and Disadvantaged
                       Business Utilization Practices (Report No. 0-000-04-00X-P)

         Thank you for the opportunity to comment on the referenced DRAFT report.
         The Offices of Acquisition and Assistance (M/OAA) and Small and
         Disadvantaged Business Utilization (OSDBU) offer the following in response to
         your DRAFT recommendations.

         Recommendation No. 1: We recommend that USAID’s Office of Acquisition
         and Assistance, in conjunction with USAID’s Office of Small and
         Disadvantaged Business Utilization, revise its guidance and internal control
         procedures for its small and disadvantaged business program to include
         mission task orders awarded.

                 M/OAA and OSDBU have long sought clarity on what types of actions are
         covered or excluded in the Small Business Program. In recent months, several
         events have further underscored a need for this clarification. One is the
         development of the successor to the Federal Procurement Data System (FPDS),
         namely FPDS – Next Generation, or FPDS-NG. The other, and related, event, is
         the Small Business Administration’s (SBA) clarification of its Goal Procedures.
         Based on a report the General Accounting Office (GAO) issued (see GAO Report
         01-551, August, 2001), SBA and the Office of Federal Procurement Policy
         (OFPP) have clarified OFPP reporting guidelines specifically to exclude from its
         small business goals contracts performed outside the U.S., regardless of where the
         contract was awarded.
                 We believe that prior to implementing Recommendation 1, we must seek
         further guidance from the General Counsel, SBA and OFPP. M/OAA and
         OSDBU have already begun that process. A memo to USAID’s General Counsel
         requested clarification (see copy attached) and representatives from M/OAA and

                                                                                              17
OSDBU met with SBA, OFPP and the Department of State on this issue on
August 23, 2004. Once we have clarified SBA and OFPP’s position on how to
count and report USAID’s “overseas contracts” in FPDS, then M/OAA, in
conjunction with OSDBU, will issue policy guidance. We project issuing
guidance within 120 days of clarifying guidance from USAID’s General Counsel
and the interested agencies and offices.

Recommendation No. 2: We recommend that USAID’s Office of Acquisition
and Assistance revise its reporting procedures and coordinate with the
Federal Procurement Data Center to ensure that mission task orders under
indefinite quantity contracts are reported by the Federal Procurement Data
Center as part of the contract baseline subject to the small and
disadvantaged business program.

        M/OAA and OSDBU concur with Recommendation 2. However, the
structure of FPDS-NG (the replacement for the Federal Procurement Data System
which is part of an e-gov initiative) has been developed by the OFPP and the
General Services Administration (GSA) with input from other agencies such as
the Small Business Administration. We are confident that the issues raised by the
Inspector General will eventually be considered and incorporated in the design of
FPDS-NG.
        As noted above in the response to Recommendation No. 1, some policy
issues remain unsettled. Further, as of this date, FPDS-NG is not yet programmed
to deliver socio-economic information regarding the use of small business. Until
an upgrade of FPDS-NG software is implemented, projected for October 1, 2005,
FPDS-NG will report contracts as awarded to either a small or large business,
with no further data as to the type of small business. With such a large issue to be
resolved, the finer point of task orders and place of award may not be addressed
as soon as the Inspector General recommends. M/OAA and OSDBU will keep
the Inspector General apprised of developments that will correct these shortfalls.

Recommendation No. 3: We recommend that USAID’s Office of Acquisition
and Assistance revise its contract data verification procedures to: 1) require
mission contracting officers to verify the completeness of mission-reported
contract actions that are reported to the Federal Procurement Data Center,
and 2) require that all mission contracting officers to respond (sic) to the
data verification requests.

        M/OAA and OSDBU concur with the goal of this recommendation.
Accurate data collection continues to be a priority. However, these requirements
presently exist, so the issue is not one of policy nor procedural requirements, but
rather compliance. As such, compliance has been stymied by ease of reporting
and consistent guidance. As consistent guidance is developed (see our response
to Recommendation No. 1, above), some of the issues identified by the Inspector
General should be resolved.



                                                                                       18
        Unfortunately, ease of reporting will not be as soon addressed. M/OAA is
presently engaged in development of a new automated system for capturing
acquisition and assistance information that will be a part of the agency’s
integrated management systems. Projected for December 2005, the new
Acquisition and Assistance system will address the shortfalls in reporting, both
from the field and in headquarters.

Recommendation No. 4:          We recommend that USAID’s Office of
Acquisition and Assistance: 1) determine the cause for the four missing
contract files, 2) revise related control procedures to improve assurance that
contract files are safeguarded and adequately maintained, and 3) reconstruct
the missing contract files.

        M/OAA and OSDBU concur with Recommendation No. 4. M/OAA will
take steps to reconstruct the missing files and will have them reconstructed within
90 days. Further, M/OAA will take steps to ensure that staff properly and
promptly construct and maintain A&A award files and ensure that they are
maintained in accordance with office file room procedures. M/OAA has
contracted out file room administration and will determine if a modification to
this contract will improve file maintenance, and if so, will take such action in the
first quarter of FY 2005. M/OAA suggests that putting in place the curative
procedures will be more productive than seeking the cause of the four lost files
identified by the Inspector General.

Attachment:

Draft Report on Audit of USAID’s Small and Disadvantaged Business
Utilization Practices (Report No. 0-0000-04-00X-P)




                                                                                       19
